     Department of Homeland Security




     FEMA Public Assistance Grant Funds Awarded to
               St. Charles Parish, Louisiana




DD-12-20                                 September 2012

                                   OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security
                                        Washington, DC 20528 / www.oig.dhs.gov .



                                                 September 12, 2012




MEMORANDUM FOR:                        George A. Robinson
                                       Acting Regional Administrator, Region VI
                               wja~~/9"Manag                                ent Agency

FROM:                                  ~ae(feafa"-
                                       Assistant Inspector G neral
                                       Office of Emergency Management Oversight

SUBJECT:                               FEMA Public Assistance Grant Funds Awarded to
                                       st.
                                         Charles Parish, Louisiana
                                       FEMA Disaster Numbers 1786- and 1792-DR-LA
                                       Audit Report 00-12-20

We audited Public Assistance (PA) grant funds awarded to St. Charles Parish, Louisiana
(Parish) (Public Assistance Identification Number 089-99089-00). Our audit objective
was to determine whether the Parish accounted for and expended Federal Emergency
Management Agency (FEMA) grant funds according to Federal regulations and FEMA
guidelines.

The Louisiana Governor's Office of Homeland Security and Emergency Preparedness
(GOHSEP), a FEMA grantee, awarded the Parish $3.5 million and $1.4 million,
respectively, for damages resulting from Hurricanes Gustav and Ike, which both
occurred in September 2008. The awards provided 90 percent FEMA funding for
Hurricane Gustav, and 90 to 100 percent FEMA funding for Hurricane Ike (see table 1).
                                                                 1
The awards consisted of 9 large projects and 68 small projects. The audit covered the
period September 2, 2008, through January 23, 2012, the cutoff date of our audit, and
included a detailed review of 19 projects totaling $4.5 million, or more than 90 percent
of the total awards (see Exhibit A, Schedule of Projects Audited and Costs Questioned).
We also conducted a limited review of $11,130 of approved direct administrative costs
for all remaining Gustav projects.




1   Federal regulations in effect at the time of the disasters set the large project threshold at $60,900.
                                OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


                         Table 1. FEMA Funding by Disaster and Category


                                                                   Federal
                               Disaster    Award                    Share
                            Name/Number   Amount                 (Category) 2
                             Gustav/1786 $3,458,552               90% (A–G)
                                                                 100% (A, B)
                                Ike/1792          1,365,750
                                                                  90% (C–G)
                             Total Awards        $4,824,302

   We conducted this performance audit between January and July 2012 pursuant to
   the Inspector General Act of 1978, as amended, and according to generally accepted
   government auditing standards. Those standards require that we plan and perform
   the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
   our findings and conclusions based upon our audit objective. We believe that the
   evidence obtained provides a reasonable basis for our findings and conclusions
   based upon our audit objective. We conducted this audit applying the statutes,
   regulations, and FEMA policies in effect at the time of the disaster.

   We interviewed FEMA, GOHSEP, and Parish officials; reviewed judgmentally selected
   project costs (generally based on dollar value); and performed other procedures
   considered necessary to accomplish our audit objective. We did not assess the
   adequacy of the Parish’s internal controls applicable to its grant activities because it was
   not necessary to accomplish our audit objective. We did, however, gain an
   understanding of the Parish’s method of accounting for disaster-related costs and its
   policies and procedures.


                                           RESULTS OF AUDIT

   The Parish accounted for FEMA grant funds on a project-by-project basis as required by
   Federal regulations, but did not reconcile its claimed costs with incurred costs in a
   timely manner. GOHSEP also inaccurately reported the Parish’s incurred costs to FEMA.
   As a result, FEMA erroneously deobligated $362,420; the Parish’s project records
   included numerous cost overruns, underruns, and unclaimed costs; and the Parish
   claimed unsupported and ineligible costs.


   2
    Categories of work are category A (debris removal), category B (emergency protective measures), and
   categories C–G (permanent work).



www.oig.dhs.gov                                      2                                              DD-12-20
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

   We concluded that FEMA needs to adjust project amounts by disallowing unsupported
   and ineligible costs from some projects, reobligating amounts for some projects to
   correct the Parish’s and GOHSEP’s accounting errors, and deobligating amounts from
   other projects. Specifically, we determined that, after disallowing costs we questioned,
   FEMA should reobligate $380,164 and deobligate $25,930, for a total net reobligation of
   $354,234. Although the net effect of these errors is not significant in proportion to the
   almost $5 million awarded to the Parish, the errors indicate that GOHSEP needs to
   provide better grant management to FEMA.

   Further, although the Parish generally followed Federal procurement standards for
   contracting, it did not include required provisions in all its contracts; did not perform a
   cost or price analysis on all procurements; and did not take all necessary affirmative
   steps to assure that small businesses, minority firms, women’s business enterprises, and
   labor surplus area firms were used when possible for its contract work.

   Finding A: Accounting and Grant Management

   The Parish did not timely reconcile its claimed costs with its incurred costs, and GOHSEP
   did not provide needed grant management. GOHSEP also inaccurately reported the
   Parish’s incurred costs to FEMA. As a result, at the end of fiscal year 2011, when FEMA
   was looking for funds for other disaster assistance projects, FEMA erroneously
   deobligated $362,420 that was necessary to cover the Parish’s eligible expenses.

   In addition, the Parish’s project records included numerous cost overruns, underruns,
   and unclaimed costs; and the Parish claimed unsupported and ineligible costs as follows:

       •	 Cost overruns and underruns netting $43,894 for which the Parish did not
          receive funding;
       •	 Unsupported costs of $50,845 (see finding B); and
       •	 Ineligible costs of $1,235 (see finding C).

   To correct these errors, FEMA needs to adjust the project amounts by reobligating
   $380,164, and deobligating $25,930, for a total net obligation of $354,234 (see exhibit
   A). If GOHSEP had effectively managed the grant, it would have detected these errors,
   because the Parish completed its projects more than 3 years ago.

   Federal regulation 44 CFR 13.40(a) requires the grantee to manage the day-to-day
   operations of subgrant activities. Further, 44 CFR 13.37(a)(2) requires the grantee to
   ensure that subgrantees are aware of requirements imposed upon them by Federal
   statue and regulation. Also, Federal appropriations laws and the Statement of Federal
   Financial Accounting Standards (SFFAS) require Federal agencies to record obligations in



www.oig.dhs.gov                                 3	                                       DD-12-20
                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security

   the accounting records on a factual and consistent basis throughout the Government.3
   The overrecording and underrecording of obligations are equally improper. Both
   practices make it impossible to determine the precise status of Federal appropriations.
   When the precise amount is not known at the time the obligation is incurred, agencies
   appropriately record an obligation based on the best estimate at the time. Agencies,
   however, must periodically adjust that obligation as more precise data on the liability
   become available. That is, they must deobligate funds or increase the obligation level,
   as the case may be (7 Government Accountability Office-Policy and Procedures Manual
   § 3.5.D; B-300480, April 9, 2003, and SFFAS Number 5, paragraphs 19, 24, 25, and 29).
   Agencies must document both the initial recordings and the adjustments to recorded
   obligations.

   Although the Parish completed all projects more than 3 years ago, GOHSEP has not
   provided closeout information to FEMA. Federal regulations at 44 CFR 206.205(b)(1)
   require grantees to make an accounting to the FEMA Regional Administrator of eligible
   costs for each approved large project “as soon as practicable after the subgrantee has
   completed the approved work and requested payment.” Therefore, GOHSEP should
   complete its reviews of all projects and submit an accounting of eligible costs for
   closeout.

   Without timely closeouts, Federal funds remain obligated as a liability against FEMA’s
   appropriated funds and can limit FEMA’s ability to authorize other disaster assistance
   projects. We consider 6 months after the subgrantee has completed the approved work
   and requested payment a reasonable amount of time for the grantee to complete its
   reviews of costs claimed and submit an accounting of eligible costs to FEMA.

   As of May 3, 2012, FEMA had approved $51.7 million in management and administrative
   costs for managing the $1 billion in approved grant funds to the State of Louisiana for
   Hurricanes Gustav and Ike. Of the $51.7 million, GOHSEP has requested $13.3 million
   since August 2008. Although we are not commenting on the overall reasonableness of
   these management costs, we point out that FEMA is paying GOHSEP to manage these
   disasters and therefore should require GOHSEP, as the grantee, to develop and
   implement procedures to better manage its responsibilities under this grant.

   The above discussions regarding project tracking and monitoring demonstrate that
   GOHSEP, as the grantee, should have managed this grant better. In addition, we cited
   instances in a previous audit for Hurricane Katrina in which the Parish did not comply
   with Federal regulations. 4 It is not enough for GOHSEP to merely advise subgrantees of

   3                                                                           rd
     U.S. General Accounting Office, Principles of Federal Appropriations Law, 3 edition, Volume II, February 

   2006, Chapter 7, Section B: Criteria for Recording Obligations (31 U.S.C. § 1501).

   4
     DD-12-06, FEMA Public Assistance Grant Funds Awarded to St. Charles Parish, Louisiana, 

   February 22, 2012.



www.oig.dhs.gov                                        4                                                DD-12-20
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security

   Federal regulations. According to 44 CFR 13.40(a), GOHSEP is responsible for managing
   the day-to-day operations of grant- and subgrant-supported activities, and monitoring
   must cover each program, function, or activity. Further, the FEMA-State agreement for
   Hurricanes Gustav and Ike requires GOHSEP to comply with the requirements of laws
   and regulations contained in the Robert T. Stafford Disaster Relief and Emergency
   Assistance Act, Public Law 93-288, as amended, 42 U.S.C. §5121, et.seq., and its related
   Federal regulations.

   It is FEMA’s responsibility to hold GOHSEP accountable for proper grant administration.
   GOHSEP and the Parish should have timely reconciled incurred, claimed, and
   reimbursed costs. Therefore, it is critical that both GOHSEP and the Parish strengthen
   their accounting procedures to ensure compliance with Federal guidelines, and FEMA
   should take steps to ensure that GOHSEP improves its grant management procedures.
   GOHSEP officials agreed that there is a need for action on this issue.

   Finding B: Documentation

   The Parish’s claim included $50,845 in unsupported direct administrative costs (DAC).
   The Parish completed 73 projects that included $54,675 of approved DAC. However,
   the Parish did not account for actual incurred DAC on a project-by-project basis, as
   required. According to Parish officials, they did not track DAC because they were
   unaware of the requirement to support these costs until 2009. However, GOHSEP’s
   presentation during the applicants’ briefing for Hurricanes Gustav and Ike, which
   occurred in September 2008, stated that all DAC must be documented by project. The
   Parish was able to support only $3,830 of the total $54,675 of approved DAC.

   Federal regulations at 44 CFR 13.20(b)(2) require subgrantees to maintain records that
   adequately identify the source and application of funds provided for financially assisted
   activities. These records must contain information pertaining to subgrant awards and
   authorizations, obligations, unobligated balances, assets, liabilities, outlays or
   expenditures, and income. In addition, FEMA Disaster Assistance Policy 9525.9, Section
   D, states that DAC must include costs that can be tracked, charged, and accounted for
   directly to a specific project, and are limited to actual reasonable costs incurred for a
   specific project. The requirement further states that if a project is complete when the
   project worksheet is prepared, actual DAC will be included in the project for the
   subgrantee, and a summary of the actual costs will be attached to the project. FEMA
   has stated that DAC must be adequately supported even for small projects, which
   require documentation.

   The majority of the Parish’s 75 projects were completed before FEMA authorized them.
   While FEMA regulations allow the authorization of projects after work is complete, the
   Parish must limit its claim to those costs it can document as incurred. Because the


www.oig.dhs.gov                                5                                        DD-12-20
                                OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security

   Parish did not have support for some of the DAC, we question $50,845 of unsupported
   DAC. GOHSEP officials said that they will work with the Parish to determine whether
   additional costs can be supported.

   Finding C: Duplicate Scopes of Work and Costs

   The Parish’s claim included $1,235 of duplicate claimed costs. The Parish submitted
   invoices to support costs incurred for Project 2026 and submitted these same invoices
   to support costs for Project 4251 (both small projects). This occurred because the
   projects contained duplicate scopes of work. The scope of work on Project 2026 was for
   repair work to two sites. Project 4251 included the same sites in addition to two other
   sites. Because the two projects included the same scope of work, FEMA should
   deobligate $1,235 of duplicate funding under Project 2026. GOHSEP officials said that
   they will work with the Parish to substantiate the duplication before they concur.

   Finding D: Contracting

   Although the Parish generally followed Federal procurement standards for contracting,
   it did not comply with three procurement standards required by Federal regulations.
   First, the Parish did not include in its contracts the provisions required by
   44 CFR 13.36(i). These contract provisions document the rights and responsibilities of
   the parties and minimize the risk of contract misinterpretations and disputes.

   Second, the Parish did not perform a cost or price analysis on any of the six contracts we
   reviewed. Federal regulations at 44 CFR 13.36(f)(1) require subgrantees to perform a
   cost or price analysis in connection with every procurement. Performing a cost or price
   analysis decreases the likelihood of unreasonably high or low prices, contractor
   misinterpretations, and errors in pricing relative to the scope of work.

   Third, the Parish did not take all necessary affirmative steps to assure that small
   businesses, minority firms, women’s business enterprises, and labor surplus area firms
   were used when possible, as required by 44 CFR 13.36(e). These affirmative steps
   should include using the services and assistance of the Small Business Administration
   and the Minority Business Development Agency of the Department of Commerce, and
   requiring the prime contractor, if subcontracts are to be used, to take the affirmative
   steps listed in Federal regulations 44 CFR 13.36(e)(2)(i) through (v).

   In our audit of the Parish’s grant funds awarded for Hurricane Katrina, 5 we
   recommended that the Parish establish the necessary steps to meet the requirements

   5
    DD-12-06, FEMA Public Assistance Grant Funds Awarded to St Charles Parish, Louisiana,
   February 22, 2012.


www.oig.dhs.gov                                      6                                      DD-12-20
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security

   of 44 CFR 13.36. As a result, the Parish revised its standard contract template. The
   revision states that the Parish “shall, to the extent consistent with quality, price, risk and
   other lawful and relevant considerations, use its good faith efforts to achieve
   participation by minority, women and disadvantaged businesses.” However, simply
   stating that the Parish’s policy is to consider awarding contracts to minority, women-
   owned, and disadvantaged businesses is not sufficient. Rather, the Parish must
   document the affirmative steps taken to encourage such firms to bid on its contracts.

   We did not question any disaster-related contract costs because the Parish obtained
   bids from small and disadvantaged businesses and awarded three of its contracts to
   such businesses (three contracts totaling $1.5 million out of six contracts totaling $1.9
   million). However, in the future, the Parish needs to document the steps it takes to
   assure compliance with all Federal procurement standards.

   Parish officials said that they did not receive contracting guidance from GOHSEP until
   early 2012. However, they agreed to follow the regulations in the future. GOHSEP
   officials disagreed with our finding on the need for cost and price analyses, commenting
   that FEMA makes the decision on this issue, and that GOHSEP follows FEMA’s practice
   that if a contract was bid properly, the process itself served as a cost or price analysis.
   In addition, GOHSEP officials said that requiring applicants to complete a cost or price
   analysis on every contract would be onerous. We disagree with GOHSEP’s comments
   because (1) FEMA is not a party to grantee and subgrantee contracts and, therefore, is
   not involved in the decision as to the necessity of a cost or price analysis; (2) Federal
   regulations require cost or price analyses even when contracts are properly bid, in part
   to lessen the likelihood of underbidding, which can lead to nonperformance and
   contract disputes, and overbidding, which may occur when bidders have colluded on
   their bids; and (3) completing a simple cost or price analysis is not onerous; for example,
   the Parish could have determined what it paid for similar services in the past, or could
   have asked FEMA, GOHSEP, or neighboring parishes what they considered a fair price
   for similar services.


                                          RECOMMENDATIONS

   We recommend that the Acting Regional Administrator, FEMA Region VI:

   Recommendation #1: Direct GOHSEP to strengthen its grant accounting procedures to
   ensure accurate financial reporting (finding A).

   Recommendation #2: Direct GOHSEP to assist the Parish to strengthen its accounting
   procedures to ensure compliance with Federal guidelines (finding A).



www.oig.dhs.gov                                  7                                          DD-12-20
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

   Recommendation #3: Direct GOHSEP to develop and implement oversight procedures
   to improve monitoring of its subgrantees’ activities (finding A).

   Recommendation #4: Adjust project amounts by obligating or deobligating funds as
   indicated on exhibit A (finding A).

   Recommendation #5: Disallow $50,845 ($24,867 Federal share from 1786-DR-LA and
   $23,215 Federal share from 1792-DR-LA) in unsupported direct administrative costs
   (finding B).

   Recommendation #6: Disallow $1,235 ($1,112 Federal share) from 1786-DR-LA of
   ineligible duplicate claimed cost (finding C).

   Recommendation #7: Direct GOHSEP to instruct the Parish to develop and implement
   procedures sufficient to ensure the following:

       •	 All necessary affirmative steps are taken to assure that small businesses,
          minority firms, women’s business enterprises, and labor surplus area firms are
          used when possible;
       •	 Cost or price analyses are performed in connection with every procurement
          action; and
       •	 Federally required contract provisions are included in its contracts (finding D).



                  DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

   We discussed the results of our audit with Parish officials during our audit and included
   their comments in this report, as appropriate. We also provided a draft report in
   advance to FEMA, GOHSEP, and Parish officials and discussed it at exit conferences held
   with FEMA officials on July 23, 2012, and with GOHSEP and Parish officials on July 24,
   2012.

   Within 90 days of the date of this memorandum, please provide our office with a
   written response that includes your (1) agreement or disagreement, (2) corrective
   action plan, and (3) target completion date for each recommendation. Also, please
   include responsible parties and any other supporting documentation necessary to
   inform us about the current status of the recommendation. Until your response is
   received and evaluated, the recommendations will be considered open and unresolved.

   Consistent with our responsibility under the Inspector General Act, we are providing
   copies of our report to appropriate congressional committees with oversight and



www.oig.dhs.gov                                8	                                        DD-12-20
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security

   appropriation responsibility over the Department of Homeland Security. We will post
   the report on our website for public dissemination.

   Major contributors to this report were Tonda Hadley, Director; Paige Hamrick, Audit
   Manager; James Mitchell, Auditor-in-Charge; and Rebecca Hetzler, Auditor.

   Please call me with any questions at (202) 254-4100, or your staff may contact
   Tonda Hadley, Director, Central Region Office, at (214) 436-5200.




www.oig.dhs.gov                               9                                      DD-12-20
                                       OFFICE OF INSPECTOR GENERAL
                                              Department of Homeland Security
                                                                                                       EXHIBIT A
                              Schedule of Projects Audited and Costs Questioned 

                                   September 2, 2008, to January 23, 2012

                                          St Charles Parish, Louisiana 

                                FEMA Disaster Numbers 1786- and 1792-DR-LA


                                                                                                           Project
   Project         Net Award      Finding      Finding      Total Costs    Erroneous      Net Over/       Worksheet
   Number           Amount            B           C         Questioned    Deobligations   Underruns      Adjustments
Projects in Initial Audit Scope for 1786
     3033          $2,077,248       $ 3,501     $       0      $ 3,501        $205,442     $ 3,834           $205,775
      483              532,776        7,915             0        7,915          22,657           0             14,742
     4249              208,124        1,200             0        1,200               0           0             (1,200)
      534              104,369        1,854             0        1,854               0       (650)             (2,504)
     1618               98,850          850             0          850               0           0               (850)
     4272               42,970          500             0          500               0           0               (500)
     4243               11,104          250             0          250               0           0               (250)
     4147                5,787          100             0          100               0           0               (100)
     4255                4,110          150             0          150               0           0               (150)
     4251                1,672           80             0           80               0           0                (80)
     4250                1,395           50             0           50               0           0                (50)
     2026                1,235            0         1,235        1,235               0           0             (1,235)
     4298                  500           50             0           50               0           0                (50)
Limited
review                 368,412       11,130             0        11,130              0            0          (11,130)
  Subtotals         3,458,552        27,630         1,235        28,865        228,099        3,184          202,418
Projects in Initial Audit Scope for 1792
     1145              818,225       17,826          0          17,826          90,914             0           73,088
     1146              206,045        4,489          0           4,489          22,894             0           18,405
     1039              184,618            0          0               0          20,513       (7,959)           12,554
      846              109,412            0          0               0               0       (7,331)          (7,331)
      817               42,400          400          0             400               0       56,000            55,600
     1274                5,050          500          0             500               0             0            (500)
  Subtotals          1,365,750       23,215          0          23,215         134,321       40,710          151,816
Grand Totals       $4,824,302       $50,845     $1,235         $52,080        $362,420      $43,894         $354,234
Total to be obligated                                                                                       $380,164
Total to be deobligated                                                                                     $(25,930)




   www.oig.dhs.gov                                             10                                          DD-12-20
                             OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security

                                                                               EXHIBIT B 

                                      Distribution List

                                St Charles Parish, Louisiana 

                        FEMA Disaster Numbers 1786- and 1792-DR-LA


   Department of Homeland Security

   Secretary
   Chief Financial Officer
   Under Secretary for Management
   Audit Liaison, DHS

   Federal Emergency Management Agency

   Administrator
   Chief of Staff
   Chief Financial Officer
   Chief Counsel
   Chief Procurement Officer
   Director, Risk Management and Compliance
   Executive Director, FEMA Louisiana Recovery Office
   Audit Liaison, FEMA Louisiana Recovery Office
   Audit Liaison. FEMA Region VI
   Audit Liaison, FEMA (Job Code G-11-044)

   Grantee

   Director, Louisiana Governor’s Office of Homeland Security and Emergency
       Preparedness
   Audit Liaison, Louisiana Governor’s Office of Homeland Security and Emergency
       Preparedness

   State

   Louisiana Legislative Auditor

   Subgrantee

   President, St. Charles Parish, Louisiana




www.oig.dhs.gov                                11                                   DD-12-20
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
